No. 20A138

In The

Supreme Court of the United States
GATEWAY CITY CHURCH, ET AL., Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
CALIFORNIA, ET AL.
Respondents.
TO THE HONORABLE ELENA KAGAN, ASSOCIATE JUSTICE OF THE UNITED STATES
SUPREME COURT AND CIRCUIT JUSTICE FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE
I, Joseph R. Palmore, a member of the Bar of this Court and counsel for the amici on the
accompanying Motion by Church-State Scholars, with Attached Proposed Amicus Curiae Brief
in Support of Respondents, for Leave (1) to File the Brief; (2) in an Unbound Format on 8½-by11-inch Paper, and (3) Without Ten Days’ Advance Notice to the Parties, certify that on this
24th day of February, 2021, I caused a copy of this motion and amicus brief to be served via
next day service and electronic mail upon:
SEE ATTACHED
JOSEPH R. PALMORE
Counsel of Record
ADAM L. SORENSEN
MORRISON & FOERSTER LLP
2100 L St., NW, Suite 900
Washington, D.C. 20037
(202) 887-6940
JPalmore@mofo.com
FEBRUARY 24, 2021

Counsel for Amici Curiae

Service List
KEVIN T. SNIDER
PACIFIC JUSTICE INSTITUTE
P.O. Box 276600
Sacramento, CA 95827-6600
(916) 857-6900
ksnider@pji.org
Counsel for Applicants

JAMES ROBYZAD WILLIAMS
OFFICE OF THE COUNTY COUNSEL,
COUNTY OF SANTA CLARA
70 WEST HEDDING STREET
9TH FLOOR, EAST WING
SAN JOSÉ, CA 95110
(408) 299-5901
james.williams@cco.sccgov.org
Counsel for Respondents County of
Santa Clara and Dr. Cody
Xavier Becerra
Mark Beckington
Todd Grabarsky
CALIFORNIA DEPARTMENT OF JUSTICE
300 South Spring Street
Los Angeles, CA 90013
(213) 269-6044
todd.grabarsky@doj.ca.gov
Counsel for Respondents
Gov. Newsom & Director Shewry

